                                                   2 0 0 3


S e m i a n n u a l        R e p o r t

Office of the Inspector General




                October 1, 2002 ~ March 31, 2003
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA)
Board of Directors and Congress on
the overall efficiency, effectiveness,
and economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
investigations, and other reviews.

The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse; (2) viola-
tions of laws, rules, or regulations;
and (3) inefficiencies in TVA programs
and operations.

If you want to report any matter
involving TVA programs, operations,
or employees, you should call the
OIG Hotline or write the Inspector
General’s office at the address or
number listed on the back cover.
T e n n e s s e e V a l l e y A u t h o r i t y , 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401




G. Donald Hickman
Inspector General (Acting)


April 30, 2003




TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS

I am pleased to submit this semiannual report on the accomplishments of the OIG for the six month period end-
ing March 31, 2003.

I have been honored to serve as the Acting Inspector General since January 2002. The OIG staff and I now look
forward to serving with a recent presidentially nominated Inspector General. As we have always done, the man-
agement team and I will assist the Inspector General in providing leadership, coordination, and oversight to pro-
mote economy, efficiency, and effectiveness in all TVA programs and operations.

Our products for the six-month period are summarized throughout this report. They have been well received and
have contributed in many ways toward helping TVA achieve its goals. I also want to point out some of the note-
worthy OIG accomplishments during the past 15 months of which I am especially proud.

I remain sensitive of the need for TVA to conduct its business in an open and forthright manner that instills confi-
dence in Congress, the Administration, investors, and TVA customers and ratepayers. Working toward this end, I
assisted the TVA Board in strengthening corporate accountability, enhancing financial disclosure, and increasing
external auditor independence. The OIG agreed to assume technical management of the external financial audit
contract in 2003. Previously, this role was performed by the TVA Chief Financial Officer (CFO). Additionally,
TVA's Board and CFO will certify the financial statements and related information in TVA's Annual Report, as well
as all future financial statements and related information. The Information Statement, which is TVA's disclosure
report to the public financial markets, will be similarly certified. The certification process will include signed certifi-
cations by all TVA Officers and Business Managers for the information they provide for these reports.

At the same time, the OIG consolidated its financial audit resources into one department to assure an adequate
number of Certified Public Accountant-certified auditors were available to conduct the annual audit of the work of
TVA’s external auditor (PricewaterhouseCoopers [PWC]). While assuring that PWC’s financial audit work complies
with government auditing standards, this department will also conduct reviews of TVA's financial systems, busi-
ness decisions, operations, and contracts.
TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS
Page 2
April 30, 2003




We will continue to assist TVA in upgrading its computer security infrastructure. Working with TVA's
Information Services organization and an outside consultant, we agreed to establish the Information
Technology Security Assessment Team. To date, the team has identified critical risk and the current
status of information technology security for critical TVA computer systems and the steps necessary
to protect the systems from cyber-attack.

The Homeland Security Act of 2002 provided law enforcement authority for TVA OIG special agents
under guidelines to be issued by the Department of Justice. Our special agents received comprehen-
sive federal law enforcement skills training at the beginning of their careers. However, in preparation
for this new status, we have undertaken an aggressive law enforcement skills refresher training pro-
gram. The training included topics such as the rules of search and seizure, federal rules of criminal
procedure, arrest authority and techniques, defensive tactics, firearms training, and the use of non-
lethal weapons. I believe this training will ensure that our special agents exercise this authority
responsibly and professionally.

Finally, I have worked to develop a solid framework for excellence and future improvement in OIG
operations. The management team and I created momentum to implement our strategic plan. We
focused on three key areas: (1) maintaining our integrity as an independent watchdog; (2) strengthen-
ing working relationships with our stakeholders; and (3) leveraging OIG resources to optimize produc-
tivity and results.

I am pleased with the support I have received from OIG employees, the TVA Board, Congress, and
other stakeholders. I look forward to further serving these constituencies.

Sincerely,




G. Donald Hickman
Executive Summary                                                                                    1

TVA Profile                                                                                          2

Office of the Inspector General                                                                      3




                                                                                                               T A B L E
Special Features                                                                                     6

Audits                                                                                               8

Investigations                                                                                      13

Legislation and Regulations                                                                         18




Appendices                                                                                          20




                                                                                                               O F
Appendix 1 Index of Reporting Requirements Under the Inspector General Act                          21

Appendix 2 Audit Reports Issued                                                                     22

Appendix 3 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds   25

Appendix 4 Audit Reports With Corrective Actions Pending                                            27




                                                                                                               C O N T E N T S
Appendix 5 Investigative Referrals and Prosecutive Results                                          29




Highlights                                                                                          30




                                                             SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                         During this reporting period, we                audits, (3) information technology
                         continued our efforts to support TVA            reviews, and (4) performance reviews of
                         through quality audits, investigations, and     TVA operations. Corrective actions in
S U M M A R Y


                         other projects.                                 response to our audits included
                                                                         monetary recoveries, process improve-
                         Our efforts helped TVA management
                                                                         ments, and security enhancements.
                         avoid unnecessary costs, recover funds,
                         and correct identified weaknesses.              We closed 75 investigations, including
                         Also, in many instances, our efforts            multi-agency task force projects, which
                         helped confirm that many programs were          led to (1) over $1.3 million in recoveries,
                         working effectively. In total, we identified    projected savings, and fines/penalties;
                         over $37 million in recoveries, fines/          (2) administrative or disciplinary action
                         penalties, potential savings, questioned        against 16 individuals; and (3) other
                         costs, or funds which could be put to           corrective action (counseling and
                         better use. A large portion of these            management techniques) in 16 cases.
                         funds resulted from our preaward audits,        Matters we investigated included
                         where we identified potential savings for       employee misconduct, contract issues,
                         management to use in negotiating                health care fraud, and environmental
                         contracts.                                      crimes. Our investigative activities led to
                                                                         six subjects indicted and four convicted.
E X E C U T I V E




                         We completed 34 audits and
                         11 nonaudit service engagements during
                         this reporting period. These reviews
                         included (1) preaward and postaward
                         contract audits, (2) other financial-related




          T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L   1
                                                     TVA manages the nation’s fifth largest
                                                     river system. TVA dams are part of a
                                                     totally integrated resource management
                                                     system where each dam operates in
                                                     relationship to the others for multiple pur-
                                                     poses and public benefits. These
                                                     include navigation, flood control, power
TVA is a federal corporation established             supply, land use, water quality, and
in 1933 to provide flood control, naviga-            recreation.
tion, and electric power in the Tennessee




                                                                                                    T V A
Valley region. Today, TVA is the nation’s            TVA contributes to the Valley economy,
largest public power company and a                   chiefly by keeping power rates competi-
regional development agency that sup-                tive, which helps attract and retain indus-
plies low-cost reliable power, supports a            tries that provide quality jobs in the
thriving river system, and stimulates sus-           region. TVA also helps communities pro-
tainable economic development in a                   mote sustainable economic development
service area that covers 80,000 square               by providing assistance in job creation




                                                                                                    P R O F I L E
miles in the Southeastern United States,             and retention and productivity improve-
including almost all of Tennessee and                ments via capital investment, support of
parts of Mississippi, Kentucky, Alabama,             business incubators, specialized techni-
Georgia, North Carolina, and Virginia.               cal services and advice, and recruitment
                                                     for new and existing industries.
TVA generates power at 11 coal-burning
plants, 3 nuclear plants, 29 hydroelectric           The TVA power system pays its own way
dams, 1 pumped storage plant, and                    by selling electricity and issuing bonds.
6 combustion turbine sites. TVA also                 The system does not use tax dollars. In
produces energy from three renewable                 addition, TVA no longer receives con-
sources––sun, wind, and methane gas                  gressional appropriations to help fund its
from waste––and is building the first                navigation, flood control, environmental
United States flow battery energy stor-              research, and land management activi-
age system that can store electricity                ties. These programs are funded by
available during periods of lower power              power revenues.
demand for use during times of peak
                                                     TVA is governed by a three-member
demand. TVA provides electric power to
                                                     Board of Directors appointed by the
158 local power distributors, 54 large
                                                     President and confirmed by the Senate.
industries, and 8 federal agencies
                                                     Glenn L. McCullough, Jr., is Chairman,
through a network of 17,000 miles of
                                                     and Skila Harris and Bill Baxter are
transmission lines. TVA also sells power
                                                     Directors.
to 12 surrounding utilities on the inter-
change market.


                                             2   SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                                  Office Authority                                  Organization
OFFICE OF THE INSPECTOR GENERAL


                                  TVA’s OIG was created by the TVA Board            The OIG consists of two major opera-
                                  of Directors in October 1985. It became           tional units––Audits and Investigations.
                                  statutory under the Inspector General
                                                                                    OIG Audits consists of four departments.
                                  Act Amendments of 1988. Those
                                                                                    One is devoted to both preaward and
                                  amendments established OIGs at TVA
                                                                                    postaward contract-related audits. The
                                  and 32 other agencies with Inspectors
                                                                                    other three focus on (1) performance,
                                  General appointed by the agency heads.
                                                                                    (2) financial, and (3) information
                                  The authority to appoint the TVA
                                                                                    technology-related issues.
                                  Inspector General was transferred to the
                                  President in November 2000 by Public
                                                                                    OIG Investigations consists of three
                                  Law 106–422.
                                                                                    departments. One focuses on identifying
                                                                                    and investigating potential misconduct
                                  The Inspector General is responsible for
                                                                                    and integrity issues. The others focus on
                                  conducting audits and investigations
                                                                                    (1) contract fraud and misfeasance and
                                  relating to TVA programs and operations,
                                                                                    (2) computer crimes, computer forensic
                                  while keeping the TVA Board and
                                                                                    support during investigations, and health
                                  Congress fully and currently informed
                                                                                    care fraud.
                                  about problems and deficiencies relating
                                  to the administration of TVA programs
                                  and operations. TVA’s Inspector General
                                  is independent and subject only to the
                                  general supervision of the TVA Board of
                                  Directors. The Inspector General’s
                                  authority includes conducting any audits
                                  or investigations the Inspector General
                                  deems necessary or desirable, issuing
                                  subpoenas, administering oaths, and
                                  granting confidentiality to individuals who
                                  provide information to the OIG.




            T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L        3
Strategic Plan                                     various topics; and (7) emphasizing




                                                                                                    OFFICE OF THE INSPECTOR GENERAL
                                                   scoping, planning, and initial analysis
We continued our efforts to meet our five          during both audit and investigative
strategic objectives: (1) cultivating and          projects.
retaining a highly skilled, innovative, and
                                                   In fiscal year 2003, we are again measur-
motivated workforce; (2) enhancing
                                                   ing our performance against goals set for
communications with stakeholders and
                                                   three weighted measures. These
delivering services that meet their needs;
                                                   measures––productivity, timeliness, and
(3) leveraging OIG resources to optimize
                                                   results––were selected to encourage
productivity and results; (4) focusing on
                                                   better planning, to minimize time spent
areas of high risk to TVA; and (5) envi-
                                                   on unproductive projects, and to improve
sioning change affecting TVA and identi-
                                                   timeliness and resource utilization.
fying effective solutions. We have
concentrated during this period on the             Staffing and Budget
areas of improving stakeholder relations,
developing our staff, and focusing our             The OIG’s primary offices are in the TVA
resources on areas that contribute to              headquarters in Knoxville, Tennessee.
TVA’s success.                                     The OIG also has a satellite office in
                                                   Chattanooga, Tennessee, and completed
Activities that contributed to accomplish-
                                                   plans for opening a satellite office at the
ments within these strategic areas
                                                   Browns Ferry Nuclear Plant in Alabama
included (1) regularly apprising the TVA
                                                   in May 2003.
Board of Directors of significant audit
and investigative results; (2) frequent            The OIG’s fiscal year 2003 budget is
meetings with TVA managers to discuss              $8.5 million with a budgeted headcount
OIG plans and results and to solicit feed-         of 90 employees.
back; (3) developing and implementing a
training program for our special agents
that meets the requirements for federal
law enforcement authority; (4) continuing
developmental training of our Level I
auditors as well as offering our more
senior auditors opportunities to maintain
existing skills and develop new ones;
(5) implementing a skills improvement
program for our management assistant
staff; (6) holding the third annual OIG
training symposium to update staff on




                                              4   SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
OFFICE OF THE INSPECTOR GENERAL


                                                                                                 Inspector General




                                                                           Assistant Inspector            Human Resource                  Assistant Inspector
                                        Legal Counsel
                                                                            General (Audits)                 Manager                     General (Investigations)


                                                                                   Contract Audits                                               Financial Investigations
                                              Deputy Assistant
                                             Inspector General
                                            (Audit and Support)                    Financial Audits
                                                                                                                                                 Information Technology
                                                                                                                                                 Investigations
                                                                                   Information Technology
                                                                                   Audits
                                                                                                                                                 Internal Investigations
                                                                                   Operational Audits




                                                                                      Contacts

                                  Inspector General (Acting)                                          Contract Audits Manager
                                  G. Donald Hickman . . . . . . . . . .(865) 632-4120                 David P. Wheeler . . . . . . . . . . . .(865) 632-3437

                                  Legal Counsel                                                       Financial Audits Manager
                                  Richard P. Levi . . . . . . . . . . . . . .(865) 632-6197           Jill M. Matthews . . . . . . . . . . . . .(865) 632-2272

                                  Assistant Inspector General (Audits)                                Information Technology Audits Manager
                                  Ben R. Wagner . . . . . . . . . . . . . .(865) 632-6309             Deborah M. Thornton . . . . . . . . .(865) 632-6184

                                  Human Resource Manager                                              Operational Audits Manager
                                  Kay T. Myers . . . . . . . . . . . . . . . .(865) 632-7718          Paul E. Ivie . . . . . . . . . . . . . . . . .(865) 632-2272

                                  Assistant Inspector General (Investigations)                        Financial Investigations Manager
                                  G. Donald Hickman . . . . . . . . . .(865) 632-7720                 Ron W. Taylor . . . . . . . . . . . . . . .(865) 632-3979

                                  Deputy Assistant Inspector General (Audit                           Information Technology Investigations
                                  and Support)                                                        Manager
                                  Lewis M. Ogles . . . . . . . . . . . . . .(865) 632-6180            Curtis D. Phillips . . . . . . . . . . . . .(865) 632-2584

                                  OIG Media Relations                                                 Internal Investigations Manager
                                  Anne B. Ferrell . . . . . . . . . . . . . .(865) 632-3505           C. Dale Hamilton . . . . . . . . . . . .(865) 632-3956




                                                     Hotline to report fraud, waste, and abuse: 1-800-323-3835
                                                                   OIG website: http://oig.tva.gov




            T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                              5
New Investigative Training
Program Implemented

Section 812 of the Homeland Security
Act of 2002 provides for law enforce-




                                                                                                                              S P E C I A L
ment authority for TVA OIG special
agents under guidelines to be issued by
the Department of Justice (DOJ). That
                                                        Team responsible for development of curriculum and teaching the
Act states the guidelines shall include, at             policies and procedures (from left to right): Sam Allen, Kay Myers,
a minimum, the operational and training                 and James Farr.

requirements contained in the existing                             enforcement authority. We plan to

memoranda of understanding between                                 complete the refresher training and the

DOJ and various Inspectors General                                 update of our policies prior to the

offices which currently govern their                               effective date of Section 812 of the

exercise of law enforcement authority.                             Homeland Security Act.


Although OIG special agents previously                             The LESRT program is part of a more

have received federal law enforcement                              comprehensive OIG special agent train-

training, to ensure a smooth transition,                           ing program being designed to meet all

we developed and initiated an intensive                            applicable training requirements, includ-




                                                                                                                              F E A T U R E S
law enforcement skills refresher training                          ing those set forth in the Quality

(LESRT) program during this reporting                              Standards for Investigations, issued by the
                                                                   President's and Executive Councils on
                                                                   Integrity and Efficiency in the pending
                                                                   DOJ law enforcement guidelines. The
                                                                   comprehensive program will ensure
                                                                   agents meet all defined training require-
                                                                   ments throughout their career, starting
                                                                   with the basic/entry level skills require-
                                                                   ments and continuing to the advanced
                                                                   professional level skills requirements.
 Firearms and defensive tactics instructors under the
 LESRT program (from left to right): Mike Duncan and
 Joe Boehr.

period. In addition, we are reviewing
current OIG investigation policies and
procedures and, where necessary,
developing new policies and procedures
relating to the exercise of full law




                                                          6     SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                              Information Technology                               the ITSA project team is employing the
                                                                                   following approach to accomplish its
                              Security Assessment
                                                                                   mission.
                              Project
                                                                                    Identify systems critical to TVA core
                              Information security issues continue to
F E A T U R E S



                                                                                      operations.
                              be of critical importance to TVA, as well
                              as to other companies and federal                     Identify risks and the current status of
                              agencies. Over the past three years,                    IT security for major TVA applications
                              Congress has passed legislation, such                   and general support systems through
                              as the Federal Information Security                     self-assessments.
                              Management Act, which requires federal
                              agencies like TVA to review and improve               Identify vulnerabilities on TVA

                              security of its information and report                  networks and critical systems by,

                              annually on its action plans for improve-               among other things, simulating

                              ments. This same legislation also                       attacks on TVA's network.

                              requires OIGs to independently evaluate
                                                                                    Establish action plans and targets for
                              and report on agency compliance with
                                                                                      improvements as vulnerabilities are
                              the legislation.
                                                                                      identified.

                              In response to the legislation, TVA
                                                                                   To date, the ITSA project team has
                              launched a series of initiatives to upgrade
                                                                                   reported the results of 23 self-
                              its security infrastructure. TVA has
S P E C I A L




                                                                                   assessments and 2 vulnerability assess-
                              elevated the importance of information
                                                                                   ments to management. The team is
                              security issues within its business
                                                                                   currently working on internal assess-
                              executive committee and established the
                                                                                   ments of the TVA IT security infrastruc-
                              Information Technology Security
                                                                                   ture through risk and vulnerability
                              Assessment (ITSA) project team. The
                                                                                   analyses. As critical vulnerabilities are
                              team, utilizing resources from TVA's
                                                                                   identified, TVA management is taking
                              Information Services, the OIG, and
                                                                                   corrective action.
                              outside consultants, was charged with
                              identifying (1) critical risks and the current       The ITSA project team is working toward
                              status of information technology (IT)                completing its mission by June 30, 2003,
                              security for critical TVA systems and                providing TVA management with
                              (2) steps necessary to protect TVA                   information critical to strengthening
                              systems from cyber-attack.                           TVA's IT security infrastructure today and
                                                                                   in the future.
                              Utilizing guidance provided by the
                              National Institute of Science and
                              Technology and industry best practices,




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L             7
Summary of                                           equipment and engineering services
                                                     and determined (1) the contractor’s
Representative Audits
                                                     pricing methodology for a fixed price,

Audits are initiated from (1) the OIG                baseline project was more favorable

annual workplan, (2) additional issues               than its proposed pricing for cost

identified by the OIG subsequent to the              reimbursable work and (2) labor

annual workplan, (3) issues identified by            burdens included cost allowances

cooperative efforts with TVA manage-                 generally not paid by TVA. TVA

ment, and (4) concerns raised by TVA                 management subsequently

management or other stakeholders.                    negotiated reduced labor burdens

During this reporting period, we                     and fees that could save TVA about

completed 34 audits which identified                 $33.4 million.

over $1.1 million in questioned costs and
                                                   We reviewed two contractors’ pro-
almost $34.8 million in funds which could
                                                     posals to provide coal handling facili-




                                                                                                   A U D I T S
be put to better use (including $850,000
                                                     ties and engineering services for
for proposals that were not awarded).
                                                     TVA's fossil plants under a planned
We also identified numerous opportuni-
                                                     $50 million, five-year contract. We
ties for TVA to improve program opera-
                                                     determined one contractor's proposal
tions. Our audits included (1) preaward
                                                     was fairly stated, but the second
and postaward contract audits, (2) other
                                                     company's proposal was overstated
financial-related audits, (3) IT reviews,
                                                     by about $850,000 as a result of
and (4) operational audits.
                                                     administrative costs associated with
PREAWARD CONTRACT AUDITS                             handling subcontracts. TVA manage-
                                                     ment subsequently negotiated a
To support TVA management in negotiat-
                                                     contract with the first contractor.
ing procurement actions, we completed
seven preaward audits that identified
                                                   We reviewed the salary burden pro-
$34.8 million in potential savings oppor-
                                                     posals submitted by two competing
tunities. During this reporting period,
                                                     contractors to provide staff augmen-
TVA management successfully
                                                     tation services for the Browns Ferry
negotiated $38.4 million in savings as a
                                                     Unit 1 recovery. We found the
result of audits issued during this and
                                                     burden rates proposed by one
previous reporting periods. Highlights of
                                                     contractor included overstated taxes,
the more significant preaward audits
                                                     insurance, and overhead costs.
follow.
                                                     Based on our suggestions, TVA
                                                     management negotiated reduced
 We reviewed a contractor's proposal
                                                     rates that should save TVA up to
   for a $1.5 billion, multi-year contract
                                                     $408,000 over the five-year contract
   to provide flue gas desulfurization




                                             8   SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                                 period. We also found the overall               and remitted a check to TVA for
                                 burden rate proposed by the other               $81,175. TVA management and the
                                 contractor was not materially                   contractor are negotiating a settle-
                                 misstated.                                      ment of the remaining overbilled
                                                                                 amount.
                             We determined a price increase
                                 requested by a contractor to cover            We determined a contractor had not
                                 increased freight costs for providing           paid TVA $528,494 in royalties that
                                 ammonia for TVA's selective catalytic           resulted from the use of Advanced
                                 reduction systems was not sup-                  Static VAR Compensator technology.
                                 ported. We estimated TVA would                  During our audit, the contractor paid
                                 save $97,000 annually by disallowing            $146,874 of the amount due. TVA
                                 the price increase. We also sug-                management agreed with our finding
                                 gested TVA management determine if              and plans to recover the remaining
                                 TVA should actively manage its price            $381,620.
A U D I T S




                                 risk on this product similar to the
                                                                               We questioned $297,166 of
                                 method used for natural gas.
                                                                                 $597,056 in claims and price adjust-
                                 Management has developed a supply
                                                                                 ments submitted by a contractor for
                                 chain strategy and is planning to
                                                                                 work being performed at the
                                 re-compete the ammonia supply.
                                                                                 Sequoyah Nuclear Plant (SQN)
                            CONTRACT COMPLIANCE                                  because the contractor’s accounting
                            During this reporting period, we com-                records did not support them. TVA
                            pleted eight contract compliance audits              management agreed with our findings
                            that identified about $1.1 million in                and authorized the contractor to
                            ineligible and unsupported costs.                    invoice only the amounts that could
                            Management generally agreed with our                 be supported.
                            findings and has taken or plans to take
                                                                               We reviewed costs billed to TVA by
                            corrective action. Highlights of these
                                                                                 two contractors for providing
                            audits follow.
                                                                                 prescription drug benefit manage-
                             We determined a contractor had                     ment services for TVA. We found
                                 overbilled TVA an estimated                     that costs billed were in accordance
                                 $215,000 by billing at prices                   with the contract terms except for
                                 (1) different from the contract price           (1) about $40,000 related to sales tax
                                 list and (2) higher than the "most              overbillings under one contract and
                                 favored customer prices" for non-               (2) about $2,000 related to the appli-
                                 price list items. The contractor                cation of administrative fees to some
                                 agreed with the price list overbilling          claim adjustments under the other




    T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L          9
   contract. TVA management agreed                   higher fee. TVA is taking action to
   with our findings and plans to recover            lower the fee.
   the overbilled amounts.
                                                   We determined that manual transfers
 We determined that about 47 percent                of costs from operations and
   of the amount billed by a contractor              maintenance expense to capital
   for providing solid waste disposal                projects for one TVA organization
   was for facilities or services not                during a 22–month period were
   included in the contract price                    properly authorized and classified in
   schedule. In addition, the contractor             accordance with TVA policy.
   overbilled about $42,000 in those
                                                   We concluded additions to com-
   instances where billings could be
                                                     pleted plant during a 19-month
   compared to the contract price
                                                     period were properly authorized and
   schedule. The contractor reimbursed
                                                     that costs were properly accumulated
   TVA for the overbilled amount, and




                                                                                                   A U D I T S
                                                     and classified in accordance with TVA
   the contract was revised to incorpo-
                                                     policies in all material respects.
   rate prices for all TVA locations/
   facilities and services.
                                                   We determined TVA's tax-equivalent

FINANCIAL-RELATED REVIEWS                            payments for fiscal year 2002 were
                                                     calculated and distributed in accor-
During this reporting period, we
                                                     dance with relevant TVA Act require-
completed five financial-related audits
                                                     ments in all material respects. In
and performed Inspector General
                                                     addition, we found controls were in
agreed-upon procedures on TVA
                                                     place and functioning to ensure data
financial data submitted for inclusion in
                                                     reliability for the calculations.
the United States government-wide
financial statements. Highlights of these          We identified control weaknesses in
audits follow.                                       TVA's purchasing card program
                                                     related to (1) transactions exceeding
 We determined (1) TVA's short-term
                                                     transaction limits, (2) sharing of cards,
   debt administration practices
                                                     (3) record retention, and (4) travel and
   provided reasonable assurance that
                                                     travel-related expenses. TVA
   TVA received competitive arrange-
                                                     management is taking appropriate
   ments, (2) TVA appropriately
                                                     corrective action.
   accounted for short-term debt and
   the associated interest expense, and
   (3) TVA received interest rates com-
   parable to those received by others
   with similar credit quality but at a




                                            10   SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                            FISCAL YEAR 2002 FINANCIAL                         Nuclear Access Control Systems
                            STATEMENT AUDIT
                                                                               As part of our audit plan, we reviewed
                            We reviewed TVA's fiscal year 2002                 nuclear facility access control systems at
                            financial statement audit by (1) assessing         the Sequoyah and Watts Bar Nuclear
                            the external auditor's methodology,                Plants. Both plants have taken
                            evidence, and documentation;                       numerous proactive steps to enhance
                            (2) performing supplemental tests of               security for these systems, and we found
                            accounting records and comparing the               no noncompliance issues with laws or
                            results to those of the external auditor;          Nuclear Regulatory Commission require-
                            and (3) examining the independence and             ments. However, we made recommen-
                            qualifications of the external auditor. We         dations for improving logical and physical
                            determined the financial statement audit           security and contingency plans. TVA is
                            was performed in accordance with                   taking appropriate corrective action.
                            Government Auditing Standards in all
                                                                               SURPLUS PROPERTY
A U D I T S




                            material respects.
                                                                               REDEPLOYMENT
                            INFORMATION TECHNOLOGY                             We reviewed TVA's participation in the
                            Power Billing System                               General Services Administration's (GSA)
                            TVA's Power Billing System electronically          surplus property program under which
                            generates power sales invoices and                 TVA acquires, at no cost, property sur-
                            related general ledger transactions for            plused by other government agencies.
                            over $6 billion in annual revenue from             We found TVA (1) did not add the value
                            sales of electricity. We found (1) existing        of certain property to its appropriation
                            processing controls provide reasonable             balance as required by the TVA Act,
                            assurance that invoices and related                (2) sometimes used surplus property
                            general ledger transactions are accurate           inconsistently with program redeploy-
                            and (2) vendor software purchase con-              ment rules which prohibit acquisition of
                            tracts provide for appropriate support             property with the intent to sell or trade,
                            and protection of system assets.                   (3) did not adequately track the status of
                            However, we identified control weak-               property GSA agreed to provide or the
                            nesses pertaining to physical and logical          final disposition of property received, and
                            security, program changes, and contin-             (4) did not have an adequate agreement
                            gency planning. TVA is taking appropri-            with a contractor being used to obtain
                            ate corrective action.                             GSA surplus property. TVA management
                                                                               plans to take appropriate corrective
                                                                               action.




    T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L          11
ENERGY TRADING DECISION                               overall program with respect to nuclear
SUPPORT MODEL                                         security personnel. We determined that:
We assessed the reliability and integrity
                                                       The fundamental mission of TVA's
of four critical fossil power data elements
                                                         Concerns Resolution Program was
used in TVA's energy trading decision
                                                         being met. We assessed the pro-
support model––heat rate, equivalent
                                                         gram's effectiveness by (1) randomly
forced outage rate (EFOR), net depend-
                                                         surveying 275 TVAN and contractor
able capacity, and the outage schedule.
                                                         employees' willingness to report
We determined TVA could improve the
                                                         nuclear safety and quality issues,
model by (1) updating outage schedule
                                                         (2) reviewing closed case files, and
information more frequently and (2) using
                                                         (3) tracking the number of allegations
more precise or specific data that is
                                                         recorded by the Nuclear Regulatory
readily available for each unit's heat rate,
                                                         Commission since 1993.
EFOR, and capacity. TVA management




                                                                                                       A U D I T S
agreed with our findings and recommen-                 The SQN workforce (both TVA and
dations and plans to take appropriate                    contractor employees) was willing to
corrective actions.                                      report nuclear safety and quality
                                                         issues through some avenue and had
NUCLEAR SECURITY PERSONNEL
QUALIFICATIONS                                           confidence in TVA's Concerns
                                                         Resolution Program. Our opinion
We determined that qualification require-
                                                         was based on a survey of 174 SQN
ments for security personnel provided
                                                         and 75 contractor employees.
under a contract for security services at
TVA nuclear plants were met in all                     Virtually all employees of TVA's
material respects, except that TVA                       contracted nuclear security workforce
security officials did not certify the train-            would report a nuclear safety or
ing and qualification records at one plant               quality problem through some
in a timely manner. We also identified an                avenue. Our assessment was based
opportunity for TVA to strengthen its                    on a survey of 76 of the 311
background investigation process. TVA                    contractor security employees who
took appropriate corrective action.                      had unescorted access to TVA's

CONCERNS RESOLUTION PROGRAM                              nuclear plants as of August 13, 2002.
                                                         In some areas, the survey results
We performed three reviews of the TVA
                                                         indicated substantive improvement
Nuclear (TVAN) Concerns Resolution
                                                         over the results of a prior survey of
Program––an overall assessment of
                                                         the security workforce. However,
TVA's program, an assessment of SQN’s
                                                         results continued to be less favorable
program, and an assessment of the
                                                         than the survey results from the over-
                                                         all TVAN assessment.



                                                12   SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                                   Summary of                                         INTERNATIONAL CONTRACTORS––
                                                                                      INFORMATION SECURITY ISSUES
                                   Representative
                                   Investigations                                     We investigated allegations related to
                                                                                      TVA contracting with a Pakistan-based
                                   During the last 6 months, we closed 75             company, post-September 11, 2001, to
                                   investigations, including allegations and          assist in transmission-related system
                                   concerns received from ratepayers, TVA             impact studies. These studies included
I N V E S T I G A T I O N S




                                   managers and employees, governmental               information only available to TVA
                                   and congressional staffs, and OIG                  employees on a need-to-know basis.
                                   auditors. Our investigations, including            TVA initially declined to contract with the
                                   task force projects, resulted in                   company; however, the company
                                   (1) $1,301,147 in recoveries, projected            opened an office in Canada, and the
                                   savings, and fines/penalties; (2) six sub-         contract was issued.
                                   jects indicted; and (3) four subjects con-
                                                                                      Our investigation revealed another con-
                                   victed. Representative investigations are
                                                                                      tractor company, based in New York
                                   highlighted below.
                                                                                      City, received sensitive documents from
                                   WORKERS’ COMPENSATION FRAUD                        TVA for CAD (computer-aided design)

                                   We determined that a former TVA                    conversion, then electronically forwarded

                                   employee receiving workers' compensa-              the documents to India, where the work

                                   tion benefits failed to disclose pertinent         was actually performed.

                                   earnings information about his employ-
                                                                                      Although we found no evidence of
                                   ment as a construction company
                                                                                      security breaches or misconduct in the
                                   inspector.
                                                                                      administration of these contracts,

                                   After reviewing information received by            security concerns remained. Among

                                   the TVA OIG, the Office of Workers'                these concerns were difficulties in per-

                                   Compensation Programs (OWCP)                       forming background checks on the con-

                                   re-rated the individual's earnings ability,        tractors' employees and the lack of

                                   reducing his monthly OWCP benefits and             control over sensitive information sent

                                   saving TVA a projected total of $365,976           abroad.

                                   over the course of the individual's life-
                                                                                      We apprised TVA management of our
                                   time. In addition, based on our findings,
                                                                                      findings in these two cases. As a result,
                                   OWCP declared it had previously over-
                                                                                      the Senior Vice President, Procurement,
                                   paid the individual $46,699.
                                                                                      advised that TVA implemented new con-
                                                                                      tract language to address additional
                                                                                      security requirements for TVA contractor
                                                                                      personnel, and guidelines are being




           T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L          13
developed for contracting with foreign              TOOL MANAGEMENT PROGRAM––
companies and protecting information.               CRIMINAL INVESTIGATION RESULTS
In addition, TVA Police, which carries the          Our investigation of the theft of tools
responsibility for performing most TVA              from TVA's Tool Management Program
employment background investigations,               has resulted in five convictions and is
has also been asked to review its                   now complete.
personnel security policy regarding con-




                                                                                                     I N V E S T I G A T I O N S
tractor personnel.                                  The last conviction involved a TVA con-
                                                    tractor employee who pled guilty in
JOINT TERRORISM TASK FORCE                          federal court to a charge of making a
Because of TVA's critical energy-related            false statement to the OIG regarding his
infrastructure, the OIG began participat-           knowledge and participation in the theft
ing during this reporting period on the             of TVA tools and equipment. The
Joint Terrorism Task Force (JTTF) led by            individual subsequently was sentenced
the Federal Bureau of Investigation (FBI)           to two years' probation, 100 hours' com-
Knoxville Field Division.                           munity service, and $5,100 in fines and
                                                    assessments.
The FBI defines JTTF as "teams of state
and local law enforcement officers, FBI             Additional convictions included two other
[a]gents, and other federal agents and              contractor managers, a private business
personnel who work shoulder-to-                     owner, and a brother of one of the con-
shoulder to investigate and prevent acts            tractor managers. They were convicted
of terrorism. These task forces are                 in prior reporting periods of various
important 'force multipliers' in the war on         offenses, including conspiracy, making
terror, pooling multi-agency expertise and          false statements, and theft involving
ensuring the timely collection and sharing          approximately $1 million in stolen TVA
of intelligence absolutely critical to pre-         property. TVA has recovered the loss
vention efforts. Although the first JTTF            from the contractor and restitution from
came into being in 1980, the total                  the defendants.
number of task forces has nearly
                                                    EMPLOYEE ISSUES
doubled since September 11, 2001.
                                                    Differing Views
Today, there are 66 JTTF, including 1 in
each of the FBI's 56 main field offices             We investigated an allegation that a
and 10 in smaller offices. More than                Fossil Power Group (FPG) manager
2,300 personnel work on these task                  harassed an employee because he
forces nationwide."                                 believed the employee had raised an
                                                    issue to the OIG. We found the manager
                                                    (1) made statements to the employee
                                                    which, in our opinion, were inappropriate




                                              14   SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                                   and intended to discourage the                      the evaluations. TVA management sub-
                                   employee from raising issues to the OIG             sequently terminated the individual's
                                   and (2) sent an e-mail which was not                employment. In addition, another TVA
                                   consistent with TVA's policy on the                 employee received a written warning for
                                   expression of differing views.                      collecting personal information regarding
                                                                                       the terminated employee's performance
                                   The manager received a verbal warning,
                                                                                       and leave records.
I N V E S T I G A T I O N S




                                   and FPG management (1) discussed
                                   TVA’s differing views policy with the               Ethics Violation
                                   involved fossil plant's management to               We determined that a TVA employee,
                                   ensure no misunderstanding of require-              who was personally and substantially
                                   ments or words/actions could create a               involved in matters related to a purchas-
                                   chilling effect to employees voicing                ing contract, violated ethics regulations
                                   concerns and (2) reinforced TVA's and               by accepting over 40 meals purchased
                                   the plant's commitment to this policy               by the contractor for himself, or for him-
                                   through a site-wide communiqué.                     self and his wife. In some instances, the
                                                                                       meals were improperly invoiced to TVA
                                   Harassing and Inappropriate E-Mail
                                                                                       as well. The employee received a warn-
                                   Our investigation found that a contractor
                                                                                       ing letter, was required to undergo ethics
                                   employee sent harassing e-mails to a
                                                                                       training, and was required to reimburse
                                   coworker and the coworker's husband.
                                                                                       the contractor and TVA for the
                                   The employee initially provided false
                                                                                       contractor-provided meals.
                                   information regarding her involvement,
                                   but subsequently admitted sending the               HEALTH CARE FRAUD TASK FORCE
                                   e-mails. In addition, we determined the             We continued to support health care
                                   recipient of the harassing e-mails                  fraud task forces and working groups
                                   forwarded inappropriate e-mails to others           sponsored by United States Attorneys'
                                   at the work site in violation of TVA policy,        offices in Tennessee. The case below
                                   and we identified a computer security               reflects our involvement in the Eastern
                                   weakness. Management took corrective                District of Tennessee Health Care Fraud
                                   action, including issuing warnings to the           Task Force. Participants on the task
                                   two contractor employees and taking                 force include investigative arms of
                                   steps to correct the security weakness.             federal, state, and local agencies, and
                                                                                       Blue Cross/Blue Shield of Tennessee's
                                   Falsified Documentation
                                                                                       (BCBST) Special Investigations Unit.
                                   We provided information that a TVA train-
                                   ing instructor falsified students' survey
                                   evaluations. The employee's pay-for-
                                   performance was linked to the results of




           T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L           15
Physician's Guilty Plea and                           Illegal Disposal of Hazardous Waste
Sentencing
                                                      The ECJTF investigated a Sevierville,
Previously, we reported a Knoxville,                  Tennessee, metals treatment company
Tennessee, physician and nurse were                   for mishandling and dumping hazardous
named in a 57-count indictment, which                 waste into the Little Pigeon River. In
included charges of conspiracy, money                 January 2003, the company and its
laundering, mail fraud, and health care               president pled guilty to violating the




                                                                                                    I N V E S T I G A T I O N S
fraud.                                                Clean Water Act. The company's presi-
                                                      dent was fined $50,000; the company
During this reporting period, the physi-
                                                      was ordered to pay $100,000 restitution
cian pled guilty to five counts of the
                                                      each to the city of Sevierville and TVA
indictment, charging him with money
                                                      Police. This investigation also resulted in
laundering and defrauding Tenncare/
                                                      the company spending an additional
Medicaid, Medicare, TVA, and BCBST
                                                      $384,500 to correct deficiencies and
benefits programs. (Charges against the
                                                      achieve environmental compliance.
nurse were dismissed.)
                                                      INFORMATION TECHNOLOGY ISSUE
The physician was sentenced to
                                                      During a prior reporting period, we found
15 months' imprisonment followed by
                                                      that one nuclear plant's "intranet"
3 years' supervised release, and he was
                                                      (shared drives) contained easily
ordered to pay restitution of $247,546 to
                                                      accessible documents that displayed
the defrauded benefits plans.
                                                      personal employee information, including
ENVIRONMENTAL CRIMES JOINT                            performance reviews, development
TASK FORCE                                            plans, and social security numbers. We
We continued our participation in the                 expanded our review during this report-
Environmental Crimes Joint Task Force                 ing period to TVA's other nuclear plants
(ECJTF), which is comprised of members                and found a few instances where records
from numerous federal and state                       containing employee social security
agencies. ECJTF focuses enhanced law                  numbers were not being adequately
enforcement resources against                         protected. Management took
individuals and companies by applying                 appropriate corrective action at all three
the most effective federal and state                  plants.
criminal and civil statutes. Highlights of
the task force's work reported during this
period include the following.




                                             16   SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                                                                                                                                                        Administrative and Disciplinary Actions
                                                                                                                                                           April 1, 1998 ~ March 31, 2003*
                                                                                                                                                                      T o t al = 3 0 5

                                                                                                                                                                                                   O ra l / W ri t t e n
                                                                                                                                                                                                    W a rn i n g s
                                                                                                                                                                                                       20.5%                        Su s p e n s i o n s /
                                                                                                                    R e e m pl o y m e n t                                                                                           D emo t i o n s /
                                                                                                                          F l ag g ed                                                                                                 T ra n s f e rs
                                                                                                                           15.5%                                                                                                            8%
I N V E S T I G A T I O N S




                                                                                                                                                                                                                                              R es i g n at i o n s /
                                                                                                                                                                                                                                              R e t i re m e n t s /
                                                                                                                                                                                                                                              T e rm i n a t i o n s
                                                                                                                                                                                                                                                    10.5%

                                                                                                                                                               C o u n s el i n g /
                                                                                                                                                               Man ag emen t
                                                                                                                                                               T e c h n i qu e s
                                                                                                                                                                   45.5%


                                                                                                                                                              *Prosecutive referrals are shown in Appendix 5.




                                                                                      Closed Cases by Area
                                                                                 October 1, 2002 ~ March 31, 2003
                                                                                             T o t al = 7 5

                                                                                                                                   T ra n s m i s s i o n /
                                                                                             I n f o rm a t i o n
                                                                                                                                         Po w e r
                                                                                                S e rv i c e s
                                                                                                                                         Su p p l y
                                                                      O t h er                        8%
                                                                                                                                           9.5%
                                                                      20%
                                                                                                                                                                      F o s s i l Po w e r
                                                                                                                                                                             29%



                                               R i v e r Sy s t e m
                                               O p e ra t i o n s &
                                               E n v i ro n m e n t
                                                                                      T V A N u cl ear                     H u man
                                                        16%
                                                                                           9.5%                          R e s o u rc e s
                                                                                                                               8%




                                                                                                                                      Sources of Hotline Calls Warranting Further OIG Action
                                                                                                                                                October 1, 2002 ~ March 31, 2003
                                                                                                                                                             T o t al = 3 2



                                                                                                                                                                                             C o n t ra c t o r
                                                                                                                                                                                             E m pl o y e e s               F o rm e r T V A /
                                                                                                                              An o n y m o u s                                                   22%                         C o n t ra c t o r
                                                                                                                                    6%                                                                                       E m pl o y e e s
                                                                                                                                                                                                                                  6%




                                                                                                                        T V A E m pl o y e e s                                                                             G e n e ra l P u b l i c
                                                                                                                               28%                                                                                                 38%




           T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                                                                                       17
We continued to follow issues of interest             In response to the HIPAA regulations, we
to the OIG and TVA. During this report-               took steps to ensure OIG compliance.




                                                                                                    L E G I S L AT I O N A N D R E G U L AT I O N S
ing period, we reviewed and took steps                Those steps included analyzing how
to implement provisions of the Homeland               HIPAA might affect our operations,
Security Act of 2002, E-Government Act                segregating and securing files containing
of 2002, and regulations issued under                 medical information, and having
the Health Insurance Portability and                  employees who work with medical infor-
Accountability Act (HIPAA) of 1996. We                mation take appropriate HIPAA training.
also worked with the President’s Council              We also monitored the steps TVA is
on Integrity and Efficiency (PCIE) in sub-            taking to comply with HIPAA.
mitting comments on legislative matters
                                                      The Government Information Security
of interest to the Inspector General
                                                      Reform Act was revised under the
community.
                                                      E–Government Act of 2002 and renamed
More specifically, our efforts in response            the Federal Information Security
to the Homeland Security Act included                 Management Act (FISMA). FISMA
adopting an aggressive law enforcement                requires federal agencies to (1) review
skills refresher training program, as                 and improve the security of their informa-
discussed in this report, and working                 tion and system assets and (2) report
with the PCIE to submit community                     annually on their security plans and mile-
suggestions on the DOJ guidance to be                 stones. FISMA also requires OIGs to
issued on law enforcement authority. We               independently evaluate agency compli-
also have been instrumental in develop-               ance with FISMA and issue an annual
ing a peer review guide for the OIG com-              report. In accordance with that Act, we
munity in response to the requirement in              have conducted an independent annual
the Homeland Security Act that OIGs                   evaluation of TVA's information security
establish such an external review                     program and practices.
process. We further have amended our
routine use notices under the Privacy Act
to allow the disclosure of investigative
records in connection with peer reviews.




                                             18   SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L   19
APPENDICES




    20   SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                         Index of Reporting Requirements Under the Inspector General Act
                         REPORTING REQUIREMENT                                                                                         PAGE



                         Section 4(a)(2)       Review of Legislation and Regulations                                                     18


                         Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                                          6-17


                         Section 5(a)(2)       Recommendations With Respect to Significant Problems, Abuses, and Deficiencies          6-17


                         Section 5(a)(3)       Recommendations Described in Previous Semiannual Reports on Which
                                               Corrective Action Has Not Been Completed                                           Appendix 4
1




                         Section 5(a)(4)       Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                                               That Have Resulted                                                                 Appendix 5
A P P E N D I X




                         Section 5(a)(5)       Summary of Instances Where Information Was Refused                                      None
                         and 6(b)(2)


                         Section 5(a)(6)       Listing of Audit Reports                                                           Appendix 2


                         Section 5(a)(7)       Summary of Particularly Significant Reports                                             8-17


                         Section 5(a)(8)       Status of Management Decisions for Audit Reports Containing Questioned Costs       Appendix 3


                         Section 5(a)(9)       Status of Management Decisions for Audit Reports Containing Recommendations
                                               That Funds Be Put to Better Use                                                    Appendix 3


                         Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                                          Reporting Period                                                                             None


                         Section 5(a)(11) Significant Revised Management Decisions                                                     None


                         Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed                  None




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                           21
Audit Reports Issued
AUDIT REPORT
NUMBER                                           QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                 COSTS       COSTS     BETTER USE

CONTRACT

2002-077V
10/11/02       Advatech - Preaward                                                $33,400,000

2002-091V
10/23/02       Roberts & Schaefer Company -
               Preaward

2003-001C




                                                                                                         A P P E N D I X
11/19/02       Quality Technical Services -
               Preaward

2003-005C
11/19/02       Numanco LLC - Labor                                                   408,000
               Markup Rates - Preaward

2002-062E
11/19/02       Bowie Resources, Ltd. -
               Contract No. 98P01-238224-000

2002-073V
11/26/02       Waste Management, Inc. -            $42,048
               Pricing Accuracy -
               Contract No. 00000531

2003-007C
12/11/02       Dearborn Mid-West                                                     850,000
               Conveyer Company - Preaward

2003-006C
12/20/02       Jacobs Engineering Group -
               Preaward

2002-004C-02
01/30/03       EPRI Statcom Royalty Payments       528,494          $528,494

2002-045V
02/07/03       Laroche Industries, Inc. -                                              97,000
               Preaward

2002-070C
02/14/03       Fastenal - Contract
               No. 97X7E-201905
                                                   215,804                                               2
2002-078V
03/12/03       TVA's Prescription Drug Program         2,157
               Administered by Medco Health
               Solutions

2002-071C
03/19/03       Diversified Pharmaceutical             39,757          39,757
               Services, Inc.

2000-041C
03/20/03       RAG Cumberland Resources -
               Contract No. 95P05-129504

2002-087V
03/28/03       Holtec International Claim          297,166           297,166




                                                 22    SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                         Audit Reports Issued
                         AUDIT REPORT
                         NUMBER                                                        QUESTIONED UNSUPPORTED FUNDS PUT TO
                         AND DATE     TITLE                                              COSTS       COSTS     BETTER USE

                          F I NA N C I A L

                         2002-081C
                         10/02/02                  Transfer of Costs Between
                                                   Maintenance Expense and
                                                   Capital Costs

                         2002-074C
                         12/19/02                  Costs for Property, Plant,
                                                   and Equipment Additions
2




                         2002-037V
                         12/20/02                  TVA's Purchasing Card Program

                         2002-068C
A P P E N D I X




                         12/30/02                  Review of TVA's FY 2002
                                                   Financial Statement Audit

                         2003-016F
                         02/06/03                  Verification of FY 2002
                                                   Summarized FACTS Data

                         2003-008F
                         02/14/03                  TVA's Tax Equivalent Payments

                         2003-018F
                         03/26/03                  TVA's Short-Term Debt

                          INFORMATION TECHNOLOGY
                         2002-012T-01
                         10/25/02                  Nuclear Facility Access Control Systems
                                                   Security - Sequoyah Nuclear Plant

                         2002-043T-01
                         01/06/03                  Power Billing System Security and
                                                   Application Controls

                         2002-090T
                         02/07/03                  Transmission and Energy Scheduler System
                                                   Change and Continuity Controls

                         2003-020T
                         03/17/03                  Electronic Funds Transfer System
                                                   General Controls

                         2002-012T-02
                         03/18/03                  Nuclear Facility Access Control Systems
                                                   Security - Watts Bar Nuclear Plant




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                       23
Audit Reports Issued
AUDIT REPORT
NUMBER                                                    QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                          COSTS       COSTS     BETTER USE

O P E R A T I O NA L
2002-079E
12/04/02            Power Supply Planning
                    Process Survey

2002-083V
12/20/02            Concerns Resolution Program -
                    TVA Nuclear 2002




                                                                                                                   A P P E N D I X
2002-084V
12/20/02            Concerns Resolution Program -
                    Sequoyah Nuclear Plant 2002

2002-085V
12/20/02            Concerns Resolution Program -
                    Nuclear Security 2002

2002-048C-02
01/07/03            Pinkerton Government
                    Services, Inc. - Qualifications

2002-075E
03/03/03            Integrity of Selected Fossil Power
                    Data Input Into Model KW3000

2002-051V
03/26/03            Investment Recovery's Program
                    for GSA Materials Redeployment

TOTAL               34                                   $1,125,426                $865,417         $34,755,000*


* This figure includes funds identified in preaward audits of proposals for contracts that may not be awarded.




                                                                                                                   2




                                                           24    SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                         Audit Reports Issued With Questioned Costs
                                                                                                             QUESTIONED COSTS
                                                                                         NUMBER            TOTAL    UNSUPPORTED




                         A.     For which no management decision has been
                                made by the commencement of the reporting period           0                       $0                 $0

                         B.     Which were issued during the reporting period              6              $1,125,426            $865,417

                         Subtotals of A and B                                              6*            $1,125,426           $865,417

                         C.     For which a management decision was made during
3




                                the reporting period                                       5                $988,640            $865,417

                                (i) Dollar value of disallowed costs                       5                $988,640            $865,417

                                (ii) Dollar value of costs not disallowed                  0                       $0                 $0
A P P E N D I X




                         D.     For which no management decision has been made by
                                the end of the reporting period                            2                $136,786                  $0

                         E.     For which no management decision was made within
                                six months of issuance                                     0                       $0                 $0


                         * The total number of reports (A+B) differs from the sum of C and D when the same reports contain recommendations
                           with and without management decisions.




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                  25
Audit Reports Issued With Recommendations for Better Use of Funds
                                                                             NUMBER               DOLLAR VALUE




A.   For which no management decision has been
     made by the commencement of the reporting period                             2                   $8,567,000

B.   Which were issued during the reporting period                                4                  $34,755,000

Subtotals of A and B                                                             6                  $43,322,000

C.   For which a management decision was made during
     the reporting period                                                         6*                 $43,322,000




                                                                                                                       A P P E N D I X
     (i) Dollar value of disallowed costs                                         4                  $37,969,000

     (ii) Dollar value of costs not disallowed                                    4                    $5,353,000

D.   For which no management decision has been made by
     the end of the reporting period                                              0                               $0

E.   For which no management decision was made within
     six months of issuance                                                       0                               $0


* The total number of reports differs from the sum of C.(i) and C.(ii) when the same reports contain both costs
  disallowed and not disallowed by management.




                                                                                                                       3




                                                           26    SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                         Audit Reports With Corrective Actions Pending
                         Final corrective actions on recommendations in four contract compliance audits, two operational audits, three financial-
                         related audits, and six information technology audits had not been fully implemented as of March 31, 2003; however, all
                         are being implemented in accordance with currently established milestones.

                         AUDIT REPORT
                         NUMBER
                         AND DATE                      DESCRIPTION




                         2000-012P
                         01/09/2002                     This report included recommendations to clarify several provisions in TVA's Affirmative
                                                        Procurement Plan and to ensure documentation is maintained to support waivers from the
                                                        revised plan. TVA plans to issue a revised plan to address these issues shortly.
4




                         2000-026C-01
                         04/02/2001                     This report contained a recommendation to implement electronic data processing to collect
                                                        hours and rates billed for staff augmentation services and evaluate systems to determine how
                                                        to best meet these data processing needs. Representatives from several TVA organizations are
A P P E N D I X




                                                        formulating a broad initiative to address issues with managing TVA's contract workforce. Plans
                                                        for this effort are expected to be complete in June 2003 and will be presented to stakeholders
                                                        with recommendations for action.

                         2000-030P
                         08/13/2002                     This report contained recommendations to pursue recovery of ineligible payments and
                                                        strengthen eligibility-related processing controls. TVA management has initiated, but not
                                                        completed, action addressing these recommendations.

                         2001-032F
                         11/07/2001                     This report included recommendations to institute an updated land management business
                                                        practice and revise, update, and/or integrate processes and systems to facilitate better
                                                        communication among TVA organizations. TVA management has initiated, but not completed,
                                                        action addressing these recommendations.

                         2001-064T
                         12/21/2001                     This report included recommendations to upgrade firewall hardware and software, upgrade
                                                        server and operating system security, and develop and implement policies and procedures to
                                                        address access authorization, intrusion detection, program change control, and contingency
                                                        planning and disaster recovery. All recommendations have been implemented with the
                                                        exception of the change control procedure and that should be completed by June 2003.

                         2001-074T
                         01/07/2002                     This report contained recommendations regarding facility access control. TVA decided to
                                                        replace its system for controlling access to non-nuclear facilities and is now evaluating vendor
                                                        proposals.

                         2001-087C
                         04/30/2002                     This report included recommendations to recover ineligible costs and improve contract
                                                        administration. TVA has taken action to address the contract administration issues and is in the
                                                        process of negotiating a settlement of the ineligible costs.

                         2002-004C-01
                         07/24/2002                     This report included recommendations to strengthen contract terms in several areas and
                                                        improve record keeping of costs incurred by the contractor. TVA is addressing the
                                                        recommendations in ongoing negotiations with the contractor.




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                          27
Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE       DESCRIPTION



2002-013T
07/24/2002     This report included recommendations to improve user authentication, upgrade server
               authentication controls and operating system security, upgrade firewall software, and develop
               methods for regular reviews of firewall security logs. TVA has improved security for this
               application and negotiated a replacement product. Final action is expected by the end of fiscal
               year 2003.

2002-017T
06/25/2002     This report included recommendations to protect computer equipment from water damage,




                                                                                                                 A P P E N D I X
               ensure that computers comply with guidelines, document a contingency plan, develop and
               implement a formal software change control procedure, and strengthen firewall access
               authorization and administration. All recommendations have been implemented with the
               exception of the change control procedure and that is expected to be completed by June 2003.

2002-020C
07/23/2002     This report contained recommendations to ensure employee safety training needs are assessed
               and tracked, compliance inspections are completed, and injury/illness investigation reports are
               completed for injuries and illnesses in accordance with TVA policy. TVA management notified us
               that final action was completed in April 2003.

2002-025T
08/07/2002     This report contained recommendations to strengthen environmental and logical controls of
               TVA's implementation of Windows 2000 and Windows XP. TVA management agreed with and
               is implementing recommendations.

2002-034C
07/31/2002     This report included recommendations to amend policies and procedures, improve communica-
               tion and monitoring controls, and assess the need for additional collection agents. TVA
               management has initiated, but not completed, action addressing these recommendations.

2002-051T
09/27/2002     This report contained recommendations to strengthen IT Store purchase approval controls. TVA
               management advises it will draft and publish new standard programs/processes documents to
               address the IT Store procurement process by July 31, 2003.

2002-072C


                                                                                                                 4
09/27/2002     This report contained a recommendation to clarify the contract language regarding the basis to
               be used for price increases. TVA is addressing this recommendation in current negotiations.




                                                28     SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                         Investigative Referrals and Prosecutive Results


                         Referrals

                                      Subjects Referred to United States Attorneys*                                               12
                                      Subjects Referred to Other Agencies for Investigative or Administrative Action              0


                         Results

                                      Subjects Indicted                                                                           6
                                      Subjects Convicted                                                                          4
                                      Referrals Declined                                                                          7
5




                                      OWCP declared an overpayment of $46,699 for an individual, which he is to reimburse. In addition, his
                                      earning capacity was re-rated, which is projected to save TVA a total of $365,976 over the course of the
                                      individual’s lifetime.
A P P E N D I X




                         * Includes referrals made by task forces on which we participate.




      T VA / O F F I C E O F T H E I N S P E C T O R G E N E R A L                       29
                                               MAR 31,        SEPT 30,        MAR 31,        SEPT 30,     MAR 31,
                                                2003            2002           2002            2001        2001

ANNUAL BUDGET (In Millions of Dollars)            8.5             8.0            8.0*            8.6         8.6
CURRENT STAFFING                                  84              87             86              86          74

AUDITS & SPECIAL PROJECTS

AUDITS IN PROGRESS
Carried Forward                                   35**             33             38              45         43
Started                                           41               44             43              44         52
Canceled                                           (4)              (4)            (8)             (4)        (7)
Completed                                        (34)             (40)           (40)            (47)       (43)
In Progress at End of Reporting Period            38               33             33              38         45

AUDIT RESULTS (Thousands)




                                                                                                                     H I G H L I G H T S
Questioned Costs                               $1,125        $3,816          $1,780          $3,519       $2,613
Disallowed by TVA                                 989           911             267           1,236        3,010
Recovered by TVA                                  221           387             225           1,634          821

Funds to Be Put to Better Use               $34,755         $52,037         $31,874         $10,401      $70,422
Agreed to by TVA                             37,969          44,944           6,069          10,155       37,450
Realized by TVA                              38,172          16,014           6,090           8,277       30,918

NONAUDIT SERVICES
Completed                                         36               16             12                0        13
Cost Savings Identified/Realized (Thousands)       0                0              0                0         0


I N V E S T I G AT I O N S * * *

INVESTIGATION CASELOAD
Opened                                            87               78             93             94          86
Closed                                            75               89            114            120          83
In Progress at End of Reporting Period           127              115            126            147         173

INVESTIGATIVE RESULTS (Thousands)
Recoveries                                      $879             $961           $233         $5,862**      $214
Savings                                          366                8          1,175            542         532
Fines/Penalties                                   56               86            0.1            114**       250

ADMINISTRATIVE AND
DISCIPLINARY ACTIONS
Recommended (# of Cases)                          15               18             22              13         14
Actions Taken (# of Subjects)                     16                7              6               8         30
Counseling/Management
   Techniques Employed (# of Cases)               16               24             15                3          9

PROSECUTIVE ACTIVITIES (# of Subjects)
Referred                                          12               19               5             13         20**
Indicted                                           6                9               5              5         19
Convicted                                          4                4               3              7         14

  * Reduction represents the transfer of certain benefit costs to corporate rather than organizational
    expense accounts.
 ** Adjusted from previous reporting period.
*** The numbers below include task force activities.




                                                            30     SEMIANNUAL REPORT / OCTOBER 1, 2002 ∼ MARCH 31, 2003
                     Tennessee Valley Authority
                    Office of the Inspector General



Help Track Down Fraud,
Waste, and Abuse at TVA




     Contact the OIG Hotline
        1-800-323-3835
 To report:
 •   Contract or computer fraud          •    Theft or misuse of TVA
 •   Computer misuse or crimes                property
 •   False statements or false           •    Management reprisal
     claims                              •    Workers’ compensation fraud
 •   Irregularities in financial         •    Bribery, kickbacks, or
     reporting                                gratuities
 •   Conflicts of interest and other     •    Health care fraud
     ethics violations                   •    Environmental, health, and
 •   Travel fraud                             safety violations


           For additional information, see our Web site at oig.tva.gov
                 The OIG Vision:
         . . . illuminating today’s challenges
             and tomorrow’s solutions . . .




OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY
                     400 WEST SUMMIT HILL DRIVE
                   KNOXVILLE, TENNESSEE 37902-1401
